<html>
<title> - THE FUTURE OF U.S.-ZIMBABWE RELATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                 THE FUTURE OF U.S.--ZIMBABWE RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

                           Serial No. 114-128

                               __________

        Printed for the use of the Committee on Foreign Affairs


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-836 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Shannon Smith, Ph.D., Deputy Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     5
Mr. Ben Freeth, Executive Director, Mike Campbell Foundation.....    20
Ms. Imani Countess, Regional Program Director for Africa, The 
  Solidarity Center..............................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Shannon Smith, Ph.D.: Prepared statement.........................     8
Mr. Ben Freeth: Prepared statement...............................    23
Ms. Imani Countess: Prepared statement...........................    38

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57

 
                 THE FUTURE OF U.S.-ZIMBABWE RELATIONS

                              ----------                              


                        WEDNESDAY, JUNE 3, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:57 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith of New Jersey. The subcommittee will come to 
order.
    And let me begin by apologizing to all of you, especially 
our distinguished witnesses, for the lateness. We did have a 
series of 10 votes. Right?
    Ms. Bass. Fourteen.
    Mr. Smith of New Jersey. Fourteen votes. So it took a 
little time, and I apologize.
    Good afternoon.
    Zimbabwe is a country, as we know, the size of Montana with 
a population of nearly 14 million people. However, its mineral 
wealth gives it an outsized importance. The southern Africa 
nation is the world's largest source of platinum, gold group-
metals, and has significant reserves of nickel, gold, chromium, 
and dozens of other metals and minerals. Significant diamond 
reserves were discovered in 2006.
    Currently, about 40 percent of the country's foreign 
exchange is earned from the export of these metals and 
minerals. But, above all, its people are its greatest resource.
    The abundance of such minerals, however, and their 
exploitation, which has driven the relationship between many in 
the West and Zimbabwe, since its colonization by Cecil Rhodes 
of the British South Africa Company in 1889 on behalf of Great 
Britain, the area once known as Southern Rhodesia has 
experienced a tumultuous history. The White minority gained 
self-governance in 1922, and a 1930 Land Apportionment Act 
restricted Black access to land, making many Africans laborers 
and not landowners.
    In 1964, the White minority government unsuccessfully 
sought independence from Great Britain and then unilaterally 
declared independence a year later under White rule. This move 
sparked international outrage in economic sanctions, and that 
regime was never widely recognized by the international 
community, though the support of White ruled South Africa 
enabled the government to limp along.
    Meanwhile, Black opposition to minority rule, which began 
in the 1930s, erupted in the gorilla war in 1972. Attempts to 
end the conflict diplomatically failed until the 1979 talks 
brokered by Great Britain resulted in British supervised 
independence elections.
    The winner of that election was Robert Mugabe, leader of 
the Zimbabwe African National Union, or ZANU, who at age 91 
continues to rule this country in large part through 
intimidation and manipulation of elections.
    As a hero of the independence and majority rule movements, 
however, Mugabe has enjoyed the support of many other African 
leaders who have considered him an honored elder and have 
generally declined to join international efforts to sanction 
his government. This has placed the United States in an awkward 
position with limited African support for political and 
economic reforms that the people so desperately need in 
Zimbabwe.
    Although many observers have credited the Mugabe Government 
with productive management until fairly recent years, there 
were political problems from the beginning of his rule. For 
example, Mugabe fired fellow independence leader Joshua Nkomo 
in 1982 and then launched a campaign to suppress what his 
government called a rebellion by pro-Nkomo forces.
    The Mugabe regime has been accused of killing thousands of 
ethnic Ndebele citizens over the next few years to end the 
supposed rebellion, assisted by military advisers from East 
Germany and North Korea.
    Once one of the leading industrial nations in Africa, 
Zimbabwe has long been in an economic downward spiral in the 
1990s. It began then. Squatters, with the support of the 
Zimbabwe Government, seized White farms they claim to have been 
stolen by White settlers in the past. Despite government 
assurances these farms were not transferred to Black farm 
workers, but, rather, to cronies of the Mugabe government, 
euphemistically called veterans, who lacked agricultural 
experience.
    Both Blacks and Whites in Zimbabwe acknowledge that the 
land policies have been unfair, but the manner of addressing 
this problem led to serious economic problems for the country. 
Agricultural production fell, and the manufacturing sector, 
heavily tied to agriculture, also diminished.
    Efforts to squeeze currency from shrinking national 
reserves, from businesses, coupled with the disastrous 
requirement that businesses use the fictitious exchange rate, 
caused retailers to lose money with each and every sale. The 
effort to close the many vendors who supply tourists with 
souvenirs and citizens with necessary household items was yet 
another milestone in Zimbabwe's economic collapse.
    By the year 2006, the year-on-year inflation exceeded 1,000 
percent. Devaluation of the currency and the subsequent use of 
foreign currency are credited with eventually preventing a 
complete economic collapse.
    Zimbabwe and the United States have had a tempestuous 
relationship since that southern African nation emerged from 
White minority rule. Part of the problem has been resentment by 
Zimbabwean President Mugabe and his closest advisers against 
the United States for not supporting their liberation movement, 
the backdrop to which was the geopolitical conflict between the 
Soviet Union and the United States.
    Another part of the problem has been the justifiable public 
criticism of repressive political policies by the Mugabe 
government by successive U.S. administrations. Consequently, 
the minimal communications between our two governments have 
contributed to suspicions and an inability for the U.S. 
officials to reach out to and be cooperative with Zimbabwe 
officials.
    Successive elections have been the subject of opposition 
and international criticism for the lack of political space, 
allowed for those who would challenge the ruling ZANU party. 
Arrests, incarcerations, torture in custody, beatings at public 
rallies and demonstrations, and disappearances of government 
opponents have denied legitimacy to the Zimbabwe election 
process.
    The country's commitment to democratic governance has been 
further placed in question due to a series of repressive laws 
preventing freedoms of speech, association, and movement. As if 
the government's repressive tactics are not troubling enough, 
political jockeying in Zimbabwe, including the dismissal of 
Vice President Joice Mujuru, places the succession to President 
Mugabe in doubt, which puts U.S. policy in question.
    Today's hearing will examine current U.S. policy toward 
Zimbabwe and the prospects for an enhanced relationship, 
depending on events that have not yet taken place. Of course, 
in foreign policy, one cannot wait until the crisis 
materializes in order to create a planned response and have 
contingencies. A leader nearing the century mark, presiding 
over a fractious political scene in a country that has 
experienced political and economic turmoil, creates a situation 
which planning for positive outcome to regime change must be 
devised.
    Zimbabwe is a country rich in both natural and human 
potential. Once the resentments of the current old guard have 
passed and democratic governance can be established, U.S.-
Zimbabwe relations can become what they have never been, 
harmonious and mutually beneficial.
    I would like to yield to my colleague, Ms. Bass, for any 
opening comments.
    Ms. Bass. Thank you, Mr. Chairman.
    This hearing will allow us to explore important issues that 
affect our relations with Zimbabwe, including governance and 
accountability, economic development, and press freedoms and 
human rights.
    I want to thank today's witnesses for participating in this 
hearing, including Dr. Smith from the U.S. State Department and 
representatives from civil organizations focusing on the issues 
of labor, trade, and human rights.
    I look forward to hearing your perspectives on developments 
in Zimbabwe and the country's relationship with us. I also hope 
to hear from witnesses as to how the U.S. is currently working 
with either nongovernmental organizations or Zimbabwe civil 
society groups to support transparency and accountability in 
governance, increase political space, and improve economic 
environment.
    At the beginning of his tenure, sadly, I mean, Mugabe was 
praised by many as a force for liberating the Zimbabwean 
people. Obviously, the current government has been marked by 
challenges in suppression of voices, a restrictive electoral 
process, and a lack of transparency in national elections.
    With little opposition, the current administration, as well 
as the country's Parliament, is overwhelmingly comprised of 
members of Mugabe's political party, making voices of dissent 
hard-pressed to have their perspectives and grievances heard.
    With President Mugabe as chair of both the Southern African 
Development Community and the African Union, which, obviously, 
are key regional bodies for both economic development and 
governance, I would like to hear from today's witnesses what 
they think the effect of his leadership will be on both bodies, 
particularly with so many elections happening on the continent 
in the next couple of years.
    And in terms of U.S. policy toward Zimbabwe, the Zimbabwe 
Democracy and Economic Recovery Act of 2001 sets out a range of 
targeted economic sanctions and restrictions on certain types 
of aid to the region. Zimbabwe is also currently ineligible for 
trade benefits under other U.S. initiatives. I would like to 
know from the witnesses what you feel the impact of those 
policies have been.
    In closing, I would like to recognize and thank our 
witnesses once again. And I hope to explore the most effective 
approaches to ensure that we improve U.S.-Zimbabwe relations 
through supporting its citizens' efforts for increased 
democratic governance and economic opportunity.
    Mr. Smith of New Jersey. Ms. Bass, thank you so very much.
    We are very privileged to welcome a new member of the 
subcommittee and a new number of Congress, Congressman Daniel 
Donovan. Just a brief bio on Dan.
    He was elected in New York, represents the 11th 
Congressional District, which encompasses all of Staten Island 
and southern Brooklyn. Congressman Donovan was elected on May 5 
and sworn in on May 13.
    A native Staten Islander, Congressman Donovan has dedicated 
his life to serving the people of New York. He began his career 
as a prosecutor, serving 8 years under Manhattan District 
Attorney Robert Morgenthau.
    Congressman Donovan began serving his native Staten Island 
in 1996 as chief of staff to then-Borough President Guy 
Molinari.
    I would note, parenthetically, that Guy Molinari and I got 
elected to Congress in 1980 when Ronald Reagan got elected. So 
Guy is an old friend, a good friend, but he served as his chief 
of staff.
    In January 2002, he was appointed Deputy Borough President 
under Borough President James Molinaro. In November 2003, 
Congressman Donovan was elected Richmond County District 
Attorney, where he remained in that office for over a decade. 
He is a member of Homeland Security and Foreign Affairs 
Committees and now a new member of our subcommittee.
    And welcome, Congressman Donovan. I yield to you.
    Mr. Donovan. Thank you very much, Chair.
    Thank you, Ms. Bass, for your welcoming.
    Being a Member of Congress for 3 weeks and this being my 
first subcommittee meeting, I look forward to hearing from all 
witnesses. Thank you.
    Mr. Smith of New Jersey. Thank you very much, my friend 
Dan.
    We now would like to welcome Dr. Shannon Smith, who was 
appointed Deputy Assistant Secretary of State in the Bureau of 
African Affairs in May 2013. Prior to joining the State 
Department, she served as senior policy adviser for Africa and 
Global Health for the Senate Foreign Relations Committee from 
2007 to 2013.
    As a senior staffer for Africa, she traveled widely on the 
continent, leading staff delegations and accompanying the 
chairman on numerous trips to Sudan and South Sudan, during the 
process leading up to the 2011 referendum on independence. 
Prior to her work in the policy area, Dr. Smith was a history 
professor.
    And I yield such time as you may consume.

STATEMENT OF SHANNON SMITH, PH.D., DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Smith. Thank you, Mr. Chairman, Ranking Member Bass.
    And welcome, Congressman Donovan.
    Thank you for holding this hearing on Zimbabwe and for 
inviting me to testify before you. We appreciate the deep 
interest of this subcommittee and are pleased to work with 
Congress in support of our national interests in Zimbabwe and 
in the region.
    Last month, traveling with my counterpart from the Bureau 
of Democracy, Human Rights, and Labor, I went to Zimbabwe to 
engage in a series of meetings with our Embassy, the 
government, opposition members, and civil society. The purposes 
of the trip were to reaffirm U.S. messages of support for the 
people of Zimbabwe, to communicate our hopes for democratic 
reforms and economic development, and to better understand the 
situation on the ground.
    Fundamentally, Zimbabwe remains trapped in a moment of time 
that has been unfolding for decades. President Robert Mugabe 
maintains his hold on power, as you noted, as a result of the 
2013 elections that were neither free nor fair. The country's 
economy is failing, driven down not by international sanctions, 
but by national policies and rampant unemployment. Once a 
breadbasket for the region, it faces major food security 
challenges in the months to come.
    Political rights remain curtailed. Outright violence has 
declined compared to previous years, but prominent examples 
such as the disappearance of activist Itai Dzamara reminds 
Zimbabweans that their safety is elusive. Both the ruling party 
and the opposition appear to be fragmenting, adding to an 
environment of uncertainty and, therefore, unease.
    Against this backdrop U.S. interests in Zimbabwe remain the 
same, a peaceful democratic and prosperous country that 
provides for its people and contributes to regional stability. 
To realize our interests, we strongly believe in engagement 
with government and nongovernment alike, to promote our values, 
and work together in areas of common concern. We view this 
ongoing dialogue as part of building the bilateral 
relationship.
    Current circumstances do not merit a change in our policy, 
but we remain hopeful that in the future they will. We strive 
to balance our targeted sanctions on those who have impinged 
upon human rights and the rule of law with our encouragement of 
economic reforms and investment.
    We stand by the commitments we made to the people of 
Zimbabwe at their independence in 1980 to work together to 
promote democratic institutions, equitable economic growth, 
public health, and food security. To this end, the United 
States has provided over $2.6 billion in development and 
humanitarian assistance to Zimbabwe since its independence.
    Zimbabwe's economy, as I noted, is failing. While the 
country made headway in curbing hyperinflation during the 
period of the government of national unity between 2008 and 
2013, today the economy is again in desperate straits. The 
civil service wage bill alone eats up an unsustainable 80 
percent of total expenditures, leaving very little in the 
government to run operations or support investments in the 
country's degrading infrastructure.
    The formal economy has shrunk to a small fraction of 
Zimbabwe's citizens. Unemployment estimates range as high as 80 
percent or even higher. To add to the country's woes, poor 
rains, building on disastrous agricultural policies in past 
years, are projected to leave millions of Zimbabweans facing 
food insecurity. The Government of Zimbabwe continues to blame 
U.S. targeted sanctions for its economic hardships. But, in 
reality, these bleak conditions were created by the government 
itself.
    The World Bank's Ease of Doing Business Index rates 
Zimbabwe as 171st out of 189 countries in the world. 
Transparency International also places them in the bottom 20 in 
its Corruption Perceptions Index. Other barriers to 
international investment include a lack of clarity about 
indigenization policies, failures to safeguard property rights, 
and the uneven application of the rule of law.
    Political developments and uncertainties are exacerbating 
economic problems and vice versa. Internal struggles over 
possible succession within ZANU-PF, the ruling party, continue 
to dominate political discourse and impede hopes for reform.
    In December 2014, President Mugabe dismissed one of his 
Vice Presidents, Joice Mujuru, who had long been thought to be 
a possible favorite to succeed him. This was followed by a 
series of cabinet shuffles and party expulsions of her 
perceived supporters.
    Within the party, factions are forming as potential 
successors vie for positions of power. In the meantime, at age 
91, President Mugabe remains firmly in charge, and there are no 
indications he plans to step down.
    Zimbabwe's opposition has failed to capitalize on these 
fissures in ZANU-PF and unite behind a common vision. The 
opposition has become increasingly splintered itself with new 
breakaway parties forming under other leadership.
    This political fracturing underscores the importance of the 
United States standing firmly on democratic principles, rule of 
law and human rights, and encouraging the government and 
opposition alike to make progress in those areas.
    The United States places the protection of human rights at 
the center of our foreign policy and has longstanding concerns 
about violations of human rights, including intimidation, 
harassment, and torture.
    The United States remains gravely concerned about reports 
of the forced disappearance of Zimbabwe and civil society 
activist Itai Dzamara on March 9. To date, his whereabouts and 
his well-being remain unknown.
    Mr. Dzamara gained notoriety after he presented a letter to 
the Office of the President and Cabinet in 2014, demanding that 
President Mugabe step down for failing the Zimbabwean people.
    During our recent visit to Zimbabwe, my colleague and I 
raised this case with the government and in virtually every 
public and private meeting. The United States stands with Mr. 
Dzamara and the people of Zimbabwe in defending the rights to 
freedom of expression and peaceful assembly.
    And for all its challenges--and their numbers are legion--I 
was struck on this trip once again by the resilience and 
tremendous capacity of the Zimbabwean people. As one gentleman 
told me, there is nothing in his country that is not fixable. 
The United States shares that conviction and that hope.
    When I was in Harare last month, several people asked me as 
well if Americans still cared about what was happening in their 
country. Hearings such as this are, in fact, proof that we do. 
So thank you for providing me this opportunity to speak with 
your subcommittee today. Thank you for holding this hearing. 
And I welcome any questions that you may have.
    [The prepared statement of Ms. Smith follows:]
   
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
                              ----------                              

    Mr. Smith of New Jersey. Dr. Smith, thank you so very much, 
and thanks for underscoring the fact that the people are not 
only resilient, but they have hope. And I think the more we can 
build on that hope and do whatever tangibly we can do to assist 
so there is a matriculation from the current crisis to a better 
day, the better.
    And along those lines, I am very concerned, and maybe you 
can elaborate on that, having just been there and seen on the 
ground what is happening.
    I will never forget, you know, when Andrew Natsios was head 
of USAID and he worked for years in the emergency response 
area--made the point--and you said it again when you said how 
Zimbabwe was a breadbasket--he, too, was beside himself that 
the early warning indicators are that a famine was in the 
offing and that starvation and malnutrition was about to go 
from bad to worse.
    And I am wondering if you can give any insights as to the 
state of play right now. Because we know there are some 
concerns about food insecurity in Zimbabwe. And what is 
projected for the next 6 months or so with regards to that 
situation?
    Ms. Smith. Thank you, Mr. Chairman.
    Yes. As Mr. Natsios had noted, and as we continue to note, 
this is a really productive, fertile country, but it is not one 
with effective production. Its policies have made that certain.
    Last year they enjoyed really good rains and they had 
pretty good harvests. This year that has not been the case. And 
so the forecasts for maize, in particular, are pretty grim, and 
there are potentially millions of people in Zimbabwe who may be 
in need of food assistance.
    Mr. Smith of New Jersey. Are there contingency plans 
underway, USAID, from a disaster----
    Ms. Smith. There are. Yes.
    Mr. Smith of New Jersey [continuing]. Assistance point of 
view?
    Ms. Smith. Yes.
    Mr. Smith of New Jersey. And has the early-warning 
mechanism worked in terms of forecasting what might be needed 
and when?
    Ms. Smith. I think it has. And I think that they are 
forecasting what is described as crisis or stage 3 of 5 levels 
of food insecurity.
    So it is a situation in which the international community 
does have time to respond. And some of the neighboring 
countries and others can look for support there, but it is very 
much on our minds.
    Mr. Smith of New Jersey. Now, are we ready, notwithstanding 
sanctions--because, obviously, humanitarian trumps sanctions, 
particularly targeted sanctions. Are we ready? Do we have 
sufficient sources to meet that need, working in concert with 
our international partners?
    Ms. Smith. To the best of my knowledge, yes.
    Mr. Smith of New Jersey. If you could get back, you know, 
for the record with, you know, an analysis of what it looks 
like, you know, just so that we are helpful, too, on the 
congressional side, you know, to make sure that we don't get a 
deja vu with people suffering from that malnutrition.
    [The information referred to follows:]
Written Response Received from Shannon Smith, Ph.D., to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Smith of New Jersey. Let me ask you, if I could, about 
when on September 12, 2013, you testified--and Ms. Bass and I 
were very happy to welcome you then when you provided expert 
testimony--you made a point that we will not be swayed by the 
attempts of President Mugabe and his party to blame Zimbabwe's 
economic misfortunes and disastrous economic mismanagement on 
the United States and other countries' governments that 
maintain targeted sanctions on select groups of individuals and 
entities.
    Is that still the case, there is a blame game going on?
    And, most importantly, if you could, just for the record 
again outline those sanctions. What is in place? How targeted 
are they? And did you hear appeals to change those sanctions 
when you were there?
    Ms. Smith. Yes, sir. We did. And our policy does remain 
largely the same. We have sanctions on fewer than 200 
individuals or entities, approximately 106 individuals and 70 
entities, and they are intended to be targeted. They are aimed 
at individuals who have disrupted democracy or engaged in 
corruption and other acts.
    The Department of Treasury, the OFAC office, evaluates 
those situations. The list of individuals itself is considered 
to be a living, breathing list. We want to examine it 
periodically. We want to make sure that it is still valid and 
that if there are people who should be removed or entities or 
added to it, that is part of the process. But, more 
fundamentally, it remains the strongest statement, I think, of 
American values.
    Does the Zimbabwe Government continue to blame their woes 
on it? Absolutely. They attempt to use it as a propaganda tool. 
And we discussed these questions with a number of people in 
Zimbabwe, from the business community to civil society, 
including human rights activists, and opinion in Zimbabwe is 
divided, there is no question. Even among the human rights 
community, there are some who argue that, ``Well, it is a 
propaganda tool for the government. So you should consider 
it.''
    I think, in our mind, the government's attempts to use it 
as a propaganda tool don't change the fundamental reasons for 
which sanctions were imposed. And so then it becomes incumbent 
on us to offer a counterargument, which we have done. There is 
no better representative of these values and of the American 
desire to see the other almost 14 million people in Zimbabwe 
prosper than our Ambassador, Bruce Wharton, who does everything 
he can to promote economic growth outside of that small section 
of targeted sanctions.
    Mr. Smith of New Jersey. Dr. Smith, in your testimony, you 
made a disturbing observation that Zimbabwe's opposition has 
failed to capitalize on the fissures in the ZANU-PF and unite 
behind a common vision. The opposition has become increasingly 
splintered.
    One, could you elaborate on that? What does that look like 
in terms of splintering? Is it just a multitude of parties?
    Secondly--and my final question--Imani Countess the African 
Regional Program Director for the Solidarity Center, offers 
criticism--and I would just like to know what your response is 
to it--that U.S. funding for democracy, human rights, and 
governance programs in Africa through the U.S. Agency for 
International Development has been declining despite 
extraordinary need, down 40 percent since 2008. And I am 
wondering if, you know, you can provide some insight into that 
criticism.
    Ms. Smith. Thank you.
    Yes. On the question of the opposition, it is a matter of 
and record now that the opposition has been splintering, that 
the Movement for Democratic Change now has multiple Movements 
for Democratic Change within it under separate leadership. And 
some of that is about differences of opinion, about differences 
of leadership. But I think that what is happening is that there 
is no unifying message at the moment that stretches across 
these parties.
    Certainly young people told us that they were looking for a 
more unifying message across the opposition and for a vision of 
where someone would take their country beyond the partisan 
questions themselves. Those are differences that are going to 
play out and that is up to the people of Zimbabwe and their 
leaders on how that goes.
    So I think that, for us, it is most important to continue 
to talk about the broader issues of reform and to continue to 
support reformers. And the political parties will evolve as 
they evolve, and we hope that, through that process, they come 
forward with a real vision for where they want to take their 
country.
    Democracy and governance remains a top priority for our 
Government clearly in Africa and elsewhere. We all know it is a 
difficult budget environment, and we are all looking for ways 
to do more. In Zimbabwe, we have exercised democracy and 
governance programs through examples such as voter education 
during a constitutional process so that people in Zimbabwe 
understood, as the constitution was being drafted and voted on, 
what that meant for their country.
    Other examples of what we are doing with the money that we 
do have are, for example, connecting women in agriculture with 
Members of Parliament so that they hear their voices and that 
they understand that, trying to support civil society in a 
variety of ways, trying to make sure that those human rights 
actors have a place to be heard. And so, in spite of a 
difficult budget environment, we are going to continue to try 
and do that.
    Mr. Smith of New Jersey. Ranking Member Bass.
    Ms. Bass. Thank you, Mr. Chair.
    Just following up on that, I am wondering if there is going 
to be any reorganization. I mean, I know that there were a lot 
of initiatives at USAID, and I know there is a change in 
leadership now. And I didn't know if funds were being 
reconsidered to increase in the democracy and governance area.
    Ms. Smith. I think I would have to leave that to my 
colleagues from USAID, but I can ask them to get back to you on 
that.
    Ms. Bass. Okay. You mentioned sanctions and you mentioned 
the list being fluid. And I was wondering, number one, if there 
are sanctions against the Vice President and if you could speak 
a little bit about it.
    Ms. Smith. Yes. The First Vice President is a sanctioned 
individual. In general, we prefer to talk about sanctions in a 
broader way than to dwell on the individuals themselves.
    But they are based on past acts. And along with the other 
individuals who are on that list, we continue to maintain.
    Ms. Bass. Well, I really would like to understand how that 
works. I mean, I know, in theory, there is a sanction against 
an individual. I don't really know what that means. He is not 
coming to the U.S. So what exactly does that mean? How do you 
have sanctions against an individual in Zimbabwe?
    Ms. Smith. Sanctions can take different forms. They can 
take, for example, travel bans.
    Ms. Bass. Right.
    Ms. Smith. They can take prohibitions on American 
enterprise, American businesses or banks doing business with 
that individual.
    Ms. Bass. But how does that really have--I mean, just 
taking one of the individuals, how does that have an impact if 
they are not coming to the U.S. and they don't do business? He 
is the Vice President, for example. So how is that meaningful?
    Ms. Smith. I think the degree to which the government 
protests the sanctions and the degree to which, in meetings 
with us and others, that they argue that they should be lifted 
speaks to their effect.
    Ms. Bass. Yeah. Well, but, as you mentioned, there is a lot 
of different types of sanctions. I understand the economic 
sanctions. I understand that. And I am sure they are protesting 
all of the sanctions because everybody does.
    But I am just wondering how that actually has an effect. So 
it is more a political effect than symbolic as opposed to it 
really hitting them the individual sanctions?
    Ms. Smith. I mean, in our case, these are bilateral 
sanctions. So they are not global in scope. They can be active 
in other economic affairs.
    But I think they do have an economic effect. They certainly 
have a political effect. And they have a branding effect.
    Ms. Bass. Okay. In recent years, Zimbabwe has strengthened 
trade and military ties with China, including the construction 
of a Chinese military base in eastern Zimbabwe.
    If you could, speak to that. I think there are obviously 
security implications for the U.S., for a military alliance 
between the two countries. But what do we know about that 
development?
    Ms. Smith. I think the countries clearly enjoy a close 
relationship. China is active in much of Africa, as you have 
seen in many places, I know.
    Ms. Bass. We often talk about it economically, but not 
militarily.
    Ms. Smith. And in a country which is suffering from so much 
poverty, military expenditures in those ways are difficult, it 
seems to me, to justify.
    I think that the Chinese Government, too, is looking at 
Zimbabwe and certainly on the economic front, asking some hard 
questions about investing in that country and providing other 
forms of assistance.
    Ms. Bass. They are asking hard. What does that mean?
    Ms. Smith. I think that, like everyone else, they want to 
know where, for example, Zimbabwe's indigenization laws are 
going to take them----
    Ms. Bass. Right.
    Ms. Smith [continuing]. In terms of investment.
    And I think that, as long as that uncertainty prevails, I 
think even from countries from China, which they have enjoyed a 
relationship over the years--I think they will find it 
increasingly difficult to do business.
    Ms. Bass. Could you speak to what their current investments 
are in Zimbabwe, the Chinese? I mean, I am going to ask you 
some more about the military base in a minute, but----
    Ms. Smith. I don't have dollar figures on them precisely.
    Ms. Bass. No. Not the dollar figures. What sectors they are 
particularly active in.
    Ms. Smith. I think mining in particular. As the chairman 
noted in his opening statement, it is the biggest business 
there, and mineral resources and other resources, other 
extractive industries.
    Ms. Bass. Are they employing Zimbabweans on the military 
base?
    Ms. Smith. I couldn't tell you that.
    Ms. Bass. Okay. I mean, you know, one of the 
characteristics of some Chinese investment is they go over and 
build roads and build other things, but they employ Chinese, 
not necessarily folks from the country.
    Okay. I yield, Mr. Chair.
    Mr. Smith of New Jersey. Thank you very much.
    Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    When you speak to the citizens of Zimbabwe, do they know of 
our support? Do they know that the United States supports them?
    Ms. Smith. I think some do and some don't. If they only 
listen to the government in Zimbabwe, they would not know.
    Mr. Donovan. Okay. But when you go there and your 
colleagues go there, they are aware that we support them?
    Ms. Smith. Yes. And I think there is a lot of appreciation. 
There was enormous warmth that I found toward the United States 
in Zimbabwe.
    Mr. Donovan. I thought I heard in your opening statement 
that we have given--I think it was $8 billion in aid. Was that 
a correct figure? Or something around that figure.
    Does that aid get to the people who need it or does their 
country withhold that from the people who are in need?
    Ms. Smith. No. In fact, we very much direct that aid. It is 
$2.6 billion since their independence in 1980. Of that, last 
year we provided about $175 million in aid. About two-thirds of 
that was for health assistance, much of that for HIV/AIDS, also 
to fight malaria and tuberculosis.
    We work through civil society, through nongovernmental 
organizations, faith-based organizations. Those are our 
partners who help deliver that assistance.
    Mr. Donovan. And that gets to the citizens who are in need.
    Ms. Smith. It does.
    Mr. Donovan. Wonderful.
    Ms. Smith. I think we have saved hundreds of thousands, 
probably millions, of lives over the years.
    Mr. Donovan. Wonderful. Wonderful.
    Are there other things that we should be doing?
    Ms. Smith. I think it is important that we keep the lines 
of communication open. I think that we want to maintain a 
respectful dialogue, and I think that that is one way that we 
underscore the importance of our message.
    It is also important that we continue to provide the kind 
of support we have and the kind of platform for people who are 
brave enough to speak up in Zimbabwe to help provide the 
opportunity for them to do so.
    Mr. Donovan. And your direct support gives us credibility 
with the people there?
    Ms. Smith. Yes.
    Mr. Donovan. All right. Wonderful.
    And my last question: Do our allies assist us at all? Are 
they assisting the people who are in need in Zimbabwe?
    Ms. Smith. Yes. There are a number of countries that are 
active and providing assistance, sir.
    Mr. Donovan. Wonderful. Thank you, Doctor.
    Mr. Smith of New Jersey. Thank you very much, Mr. Donovan.
    Mr. Clawson.
    Mr. Clawson. Thanks for coming.
    So when I think of Zimbabwe--and I have been to Zimbabwe--I 
kind of think of opportunity lost. And if I went back to the 
1980s or 1990s and I thought of Mugabe and the leadership and 
would have guessed that we would be where we are today, who 
would have sensed that. Right?
    And so my own thinking and feeling about the country 
evolves over time, and I am now to the point where I say to 
myself: Until we have new leadership at the top of the country, 
why would we do anything besides humanitarian? Am I wrong about 
that?
    And I am not saying we are doing a lot besides 
humanitarian. But, you know, it feels like not a good--with 
that leadership, it feels like a place to do the right thing 
for the people and the humanitarian aspects of it. But, beyond 
that, pretty hopeless in terms of using our money and 
resources. Am I right about that?
    Ms. Smith. Well, our policy for a number of years now has 
been essentially characterized as humanitarian plus, so strict, 
clear life-saving aid, assistance, such as antiretrovirals for 
people with HIV/AIDS or food assistance for someone who is 
dying or faces starvation.
    But at the same time we are also providing some assistance 
in areas such as trying to create conditions for food security, 
so promoting some better agricultural practices for small 
landholders in rural Zimbabwe. I think that is still worth 
doing.
    Mr. Clawson. Do you?
    Ms. Smith. I do. Because, if we don't do it, their 
government isn't going to do it, and no one will. And I think 
the other thing we are doing is we are laying the foundation 
for the future and for what comes next in Zimbabwe.
    It is a country that could be exporting food. It is a 
country that could be a source of larger stability in the 
region. And I think we want to prepare for that day.
    Mr. Clawson. And so, in preparing for that day, it also 
feels like, to me, that, if I was a typical citizen in 
Zimbabwe, I wouldn't really much believe in free markets and 
capitalism or anything else because a small amount of people 
keep everything. And so, no matter how hard I work, I don't get 
a lot to eat and I get sick. Am I wrong about that?
    Ms. Smith. They are really an impressive collection of 
people, and it is a very entrepreneurial society. It is a 
country in which, sadly, one of the main forms of economic 
activity right now is people who are street vendors with almost 
nothing, trying desperately to make a living.
    Mr. Clawson. But what percentage of the wealth is kept by 
just a small amount of the ruling oligopoly, if you will?
    Ms. Smith. An enormous percentage. But to give you an 
example, the Young African Leaders Initiative has an 
entrepreneur segment to it where about a third of the people 
who come as part of the Mandela fellows, come to Washington and 
to American universities for a number of months.
    Zimbabweans participate in that program and they do so with 
enormous energy and enthusiasm. And they are people who are 
not--essentially, in spite of all the difficulties of doing 
business--and they are pretty frank about that--they are not 
really looking at things through a political lens. They are 
looking through an economic lens and still seeing their country 
as a place of opportunity.
    It is a country that still very much values education. It 
formerly had probably the highest levels of literacy on the 
continent, and they are still quite high. People still really 
sacrifice to send their kids to school, and they do it because 
they see it as investing in their future. So they haven't given 
up on that.
    Mr. Clawson. Can I have one more question? Is that okay?
    Mr. Smith of New Jersey. Sure.
    Mr. Clawson. And what are the conditions of the--I mean, a 
revenue producer for this country was always the natural 
resources and the wildlife and so forth. I have read things in 
the last several years that leave me a little depressed.
    How would you characterize the state of the wildlife and 
the possibility for tourism coming back, et cetera?
    Ms. Smith. Both depressing and still there. That----
    Mr. Clawson. So not done yet?
    Ms. Smith. Not done yet. And Americans are----
    Mr. Clawson. Still hope?
    Ms. Smith. Yes, sir. Americans are still the largest single 
group of tourists from outside of Africa who go to Zimbabwe. 
Victoria Falls is still an amazing site.
    Mr. Clawson. Victoria Falls. Yeah.
    Ms. Smith. There are park rangers in Zimbabwe whom I have 
met who are working desperately to try and preserve the 
rhinoceros and elephant populations, but they are doing it 
against long odds.
    Mr. Clawson. Well, for me and my part, I mean, I appreciate 
what you all are doing in terms of HIV control and any kind of 
healthcare assistance because I think it is a wonderful people 
and a wonderful place and I think they deserve it.
    I think they deserve a better ruling class and a better 
government so all people can participate in the fruits of what 
free markets ought to do, which is reward those that work hard 
and are smart about what they do as opposed to those that were 
born right.
    And so, until we have leadership that provides an equality 
of opportunity, I am not real interested in us spending too 
much time other than the humanitarian aspects as you describe.
    Yield back.
    Mr. Smith of New Jersey. Thank you, Mr. Clawson.
    Let me just ask a few final questions, if I could.
    First, Ben Freeth of the Mike Campbell Foundation, the 
executive director, makes a number of very compelling points in 
his testimony, including the Look East policy, the Chinese and 
Russian influence, the power of Robert Mugabe as President. And 
he is currently the Chairman of the African Union, as we know, 
and the Southern African Development Community, and, as he 
points out, he wields considerable power and influence on the 
continent.
    My question is: Your assessment of Mugabe's tenure as 
chairman, especially of the African Union and the Look East 
policy. I mean, we know that the Chinese Government doesn't 
give one whit whether or not human rights are followed because 
they break human rights policies with impunity and violate 
people's rights like no one else in the world. So they 
certainly are enablers there, but their Russian influence as 
well.
    And then he also makes the point that I have known about, 
but it brings it to focus again, and that is, Mengistu, you 
know, who obviously sought refuge there, as a confidant and 
close adviser.
    And, you know, soon after the devastation of thousands of 
homes by Mugabe, Greg Simpkins went and spent a week in 
Zimbabwe, observing this wanton destruction of housing, and it 
was reminiscent of what Mengistu did when he used food as a 
weapon and used a scorched earth policy. And one always 
wondered whether or not Mugabe was following his advisers' 
advice on that.
    And Mengistu obviously is directly responsible for this 
slaughter of so many Africans, again, using food as a weapon. 
And those so-called famines were largely manmade, yes, 
exacerbated by nature, but manmade because he inhibited the 
ability to feed people, and he even charged huge fees when 
international donors provided foodstuffs before they even got 
to their intended beneficiary.
    Can you speak to that, Look East, Russia, China, chairman 
of African Union, and then Mengistu connection.
    Ms. Smith. Mr. Chairman, certainly the government is 
looking east explicitly, openly. I am not sure the people of 
Zimbabwe are looking east with the same enthusiasm and----
    Mr. Smith of New Jersey. Is the opposition?
    Ms. Smith. They have been pretty critical of that. As I 
said, the opposition has a number of faces now. Now I can't say 
that--you know, if given the opportunity, some would and some 
would not, probably. But I think that, particularly from the 
opposition, there is a much stronger look West viewpoint on the 
whole.
    And, on the other hand, I am not sure that it is, as I said 
earlier, I am not sure it is a zero-sum game that we are 
playing there, that regardless of the government's choices, we 
are going to hold fast to our values. And I think that a number 
of people in Zimbabwe would much prefer to do business with 
America, for example, than with China, and we very much hope 
that they have that opportunity.
    Questions of the African Union. Yes. They elected President 
Mugabe as their chair. And, obviously, that is the choice of 
the members themselves. On an operational level, it has not 
particularly affected our ability to work with the African 
Union.
    And, as an example, I would cite our cooperation in 
fighting Ebola in west Africa. The African Union played a 
really critical role in that, in providing personnel in an 
unprecedented way.
    And because we work through our Ambassador to the AU and 
others within the Secretariat and the more operational aspects 
of the African Union, it has not inhibited our ability to do 
that and we----
    Mr. Smith of New Jersey. But our assessment of his tenure 
in office?
    Ms. Smith. Clearly, the rhetoric has changed. And there are 
a number of elections coming up. And so, obviously that is very 
much on people's minds.
    But we have not seen a profound shift in the policies. And, 
as I said, we can still find important areas to cooperate with 
the AU as a whole and will continue to do so.
    Mr. Smith of New Jersey. Is there anything that we 
disagreed with him in terms of his leadership initiatives?
    Ms. Smith. I think certainly we would agree with many of 
the statements he has made, and he continues to blame the west 
almost exclusively for, you know, any, probably, problem you 
can name on the continent.
    Mr. Smith of New Jersey. Even as chairman? Not as President 
of Zimbabwe, but as chairman?
    Ms. Smith. In terms of speeches, yes. But in terms of 
concrete policies and the work the AU does across the 
continent, we have not seen major shifts on that.
    And it is a member organization. I think, you know, that 
the members very much care about the direction of the 
organization as a whole.
    And on the issues of the----
    Mr. Smith of New Jersey. Mengistu?
    Ms. Smith. You know, that is a classic example of the sort 
of scorched earth policies in the destruction of 2005, and what 
you see today is a quieter pernicious oppression. You see fewer 
acts of overt violence and destruction than you did.
    But the phrase that you often hear is the ``harvest of 
fear,'' the idea that past violence continues to cast a shadow 
over people and that you are going to spend a lot of time 
looking over your shoulder in Zimbabwe if you dare to speak up.
    Mr. Smith of New Jersey. Thank you. Thank you very much, 
Dr. Smith.
    Ms. Smith. Yes.
    Mr. Smith of New Jersey. Thank you.
    I would like to now welcome our second panel, beginning 
with Mr. Ben Freeth, Executive Director of the Mike Campbell 
Foundation. He is from a farming area in central Zimbabwe and 
was appointed the first regional executive officer for the 
Commercial Farmers Union in 1996.
    In 2007, Mr. Freeth and his late father-in-law, Mike 
Campbell, lodged complaints against President Mugabe's 
Government in the Southern African Development Community's 
tribunal for attempting to unlawfully seize their farm, for 
violating the SADC treaty by denying access to the courts,and 
for engaging in racial discrimination and violence against 
White commercial farmers and their farm workers. Mr. Freeth's 
main focus is on restoring justice, the rule of law, and human 
rights in Zimbabwe.
    We will then hear from Ms. Imani Countess, who is the 
Africa Regional Program Director for the American Center for 
International Labor Solidarity for the AFL/CIO. She is 
responsible for the overall programmatic and financial 
management of the program, which includes activities in 15 
African countries.
    Prior to this position, she served as the Zimbabwe country 
director for the National Democratic Institute for 
International Affairs with the responsibility for program 
development, oversight, and implementation of democracy 
strengthening programs, donor relations, and representation.
    Ms. Countess has previously held positions with the 
TransAfrica Forum, the American Friends Service Committee, 
Shared Interests, the African Policy Information Center, and 
U.S. African Development Foundation.
    Mr. Freeth, the floor is yours.

STATEMENT OF MR. BEN FREETH, EXECUTIVE DIRECTOR, MIKE CAMPBELL 
                           FOUNDATION

    Mr. Freeth. Thank you very much.
    It is a great honor to be here. I just got in from Harare a 
couple of days ago. And I thank you very much for giving me the 
opportunity to put across some of the things that we are 
experiencing in Zimbabwe at the moment.
    I want to start off with a couple of pretty shocking 
quotes: ``The only language a Black man will understand is the 
language of the gun. The more you kill, the closer you get to 
your objective.'' Second quote: ``Our party must continue to 
strike fear into the heart of the Black man. They must 
tremble.'' And the third quote: ``I am the Hitler of the 
times.''
    Imagine a President from the United States of America 
saying such a thing. These are exact quotes from our President, 
except you have to substitute the word ``Black'' for ``White.'' 
``Whites are not human beings,'' said our late Vice President.
    So I want to talk today a little bit about this issue that 
we, as White people in Zimbabwe, face because it is an issue 
that is very real, is very immediate to us, and has affected, 
obviously, not just us, but has affected a very large 
proportion of the population of our country.
    We have gone through a period with the fastest shrinking 
economy in world history, in recorded history, in a peacetime 
situation. We have at this stage got a situation where there is 
85-percent-plus unemployment and where for the last 14 years we 
have needed food aid every single year. We have got a situation 
where 25 percent of the Zimbabwean population has left our 
country.
    So I want to look at the two tools by which Mugabe has 
clung to power for all these years, 35 years now. And the two 
tools that he has used very effectively are race and land. And, 
like Hitler, he blames all the problems on a particular race, 
the White people in this case, and then he violently takes the 
land.
    And we have seen how the ruling party has been rewarded 
with the land, the elite, and how the 2 million farm workers 
and their families--and millions of others in Zimbabwe--have 
suffered directly as a result and have become very poor, very 
fearful, very dependent on international food aid in order to 
be able to survive.
    So on the farms themselves, we are at a stage now where 95 
percent of White farmers have been driven off the land in the 
last 15 years. And those that are still on the land, they face 
2 years in jail for committing the crime of farming and living 
in their own homes in a country that is starving. And I have 
got many friends right now who are going through court cases 
for this ``criminal'' act of farming in our country.
    As you rightly said, Chairman, my father-in-law took our 
President to court on this issue of racism on the land and he 
got a final and binding judgment from the SADC Tribunal, the 
regional court that did cover \1/4\ billion people in southern 
Africa--which said that racial discrimination is taking place 
in Zimbabwe and that racial discrimination must stop.
    So later, when the Zimbabwe Government ignored that 
judgment and was found in contempt of that court on three 
different occasions, we finally have a situation where our 
President manages to get that whole court closed down.
    So the \1/4\ billion people in southern Africa cannot 
approach a court of last resort when their justice systems fail 
them. So a lot of people are being affected by what is going on 
here.
    One of the things that our President did sign up to in 1991 
was the United Nations' International Convention on the 
Elimination of All Forms of Racial Discrimination. 
Unfortunately, what we need is a state which is also a 
signatory--and most of the states around the world are 
signatories to that international convention--to make a 
complaint to the Committee on the Elimination of Racial 
Discrimination in the United Nations so that that committee can 
then go and investigate.
    And what we saw in Operation Murambatsvina, where those 
700,000 homes were destroyed by the state bulldozers, was the 
United Nations did come in and, within a very short period, 
that whole exercise was actually stopped.
    Last month, our President said to the 15 states in southern 
Africa, ``I give poison not for you to swallow, but to give to 
someone else.'' And he went on, ``The wrath of South Africans 
needs to be more directed toward the Whites.'' So we see this 
racial poison being spread through the region.
    And, interestingly, I was with the European Union senior 
diplomat about 3 weeks ago, and I asked him to come along to a 
commercial farm where there were 300 families that were going 
to be losing their livelihoods.
    And I said, ``You need to come and witness it because no 
one from the Embassies in Harare wants to actually come out to 
witness these things that are going on time after time, year 
after year, month after month, day after day, on the farms.''
    This farmer is just on 40 hectares that they have got left, 
but there are 300 families that derive their livelihoods from 
it.
    And the senior diplomat said, ``Is it a Black-owned farm or 
a White-owned farm?''
    And I said, ``It is a White-owned farm.''
    And he said, ``Find me a Black-owned farm where this is 
happening and I will come out.''
    In the United States, I have been very impressed by the 
moral manner in which Americans like to deal with immoral 
situations, and we all admire Martin Luther King and the civil 
rights movement.
    I believe that it is time that the United States made a 
complaint to the Committee on the Elimination of Racial 
Discrimination and asked for an investigation because I believe 
very sincerely that silence is the sound either of tacit 
approval or of cowardliness, and neither of those things are 
what I believe the United States believes in.
    So I am here as a witness. You have seen my paper, which 
brings into account all the various things that have been 
happening over recent years. But that, I believe, is something 
tacit, something that the United States can actually ask for in 
order to create some sort of accountability within the system.
    I am passionately wanting our country to go forward. We all 
want our country to go forward. But at the moment it cannot go 
forward so long as the system of racism is allowed to thrive 
because our President is able to do it without any censure from 
the rest of the world. Thank you.
    Mr. Smith of New Jersey. Thank you very much, Mr. Freeth.
    [The prepared statement of Mr. Freeth follows:]
    
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    
                              ----------                              

    Mr. Smith of New Jersey. Ms. Countess.

STATEMENT OF MS. IMANI COUNTESS, REGIONAL PROGRAM DIRECTOR FOR 
                 AFRICA, THE SOLIDARITY CENTER

    Ms. Countess. Chairman Smith, Ranking Member Bass, and 
members of the subcommittee, on behalf of The Solidarity 
Center, thank you for the invitation to testify.
    The Solidarity Center is an international NGO that promotes 
and protects worker rights globally, with programs in more than 
60 countries. In Africa, we work with unions, worker 
associations, research organizations, and community groups in 
15 sub-Saharan countries, including Zimbabwe, where we have a 
more than 15-year partnership with the Zimbabwe Congress of 
Trade Unions and its allied research and worker associations.
    We appreciate the subcommittee's continued interest in 
Zimbabwe, particularly given the deleterious governance, 
economic, and humanitarian situation in the country. Zimbabwe's 
economy is in deep decline, making it harder for average 
Zimbabweans to work and live and leaving them less and less 
confident in their future. The government consistently fails to 
address the basic needs of its people.
    Most workers earn salaries far below the poverty level. And 
many workers, even in the formal sector, go for months without 
receiving their wages. Drought in many parts of the country has 
resulted in severe crop loss, and the 2015 harvest is expected 
to be the worst in 5 years, exacerbating the struggle to 
survive in this country where nearly three-quarters of the 
population live below the poverty line.
    According to recent data from ZimStat, the number of people 
in informal jobs, unstable, poor-paying, and low-quality work, 
has risen to 95 percent. Especially troubling is the recent 
finding that more than 96 percent of Zimbabwean youth, ages 15 
to 24, are in informal employment. Essentially, this means that 
Zimbabwe's army of informal economy workers compromises the 
main engine of economic activity in the country. Yet, 
government response has been steady attempts to raise taxes on 
informal workers.
    While economic decay has thrust many workers into the 
informal economy, others leave Zimbabwe and become economic 
migrants, where they face xenophobic violence, low pay, high 
levels of informal work, and poor working conditions. Labor 
unions and pro-worker economists in Zimbabwe tell us that, to 
prevent a full-fledged economic collapse and begin the process 
of rebuilding, the Zimbabwean economy requires serious reforms.
    Forward-looking U.S. policy should seek creative ways to 
support government and civil society actors both in the country 
and the subregion who can advocate for and help implement the 
structural reforms to leverage inclusive and pro-poor growth. 
Such an approach is key to the country's ability to arrest 
economic decline and establish a new social contract where 
stakeholders, including government, labor, and business, place 
sectarian interests aside and focus on the immediate crisis.
    At the same time, informal workers both in Zimbabwe and 
migrants throughout the region would benefit from programs 
designed to assist with their struggle for economic well-being 
and dignity as well as their organizing and advocacy 
activities.
    It is essential that the United States ramp up its support 
for rule of law and democracy programs, including human rights, 
worker rights, and constitutionally based electoral reform and 
for the 2018 elections, in order to ensure that members of the 
country's community-based mass organizations are fully prepared 
to engage as informed voters, election monitors, and civic 
educators.
    It is significant to note here that U.S. funding for 
democracy, human rights, and governance programs in Africa 
through the USAID has been declining despite extraordinary 
need, down 40 percent since 2008. Entire missions in Africa 
have no DRG funding. Funding for Zimbabwe is inadequate to the 
challenge.
    Another important component of U.S. foreign policy toward 
Zimbabwe has been support for communities struck by natural 
disaster, disease, and hunger. For more than a decade, the U.S. 
has been a leader in humanitarian support, and that should 
continue.
    It is also timely to begin to explore and put in place 
policies that are more directly framed not only by Zimbabwe's 
special circumstances, but, also, by the strategies required by 
Africa as a whole.
    While Zimbabwe faces a unique set of governance challenges, 
the country, like the rest of Africa, requires coherent and 
comprehensive policies that will ultimately lead to inclusive 
and sustainable economic development, respect for human rights, 
and gender equality.
    Across the continent, nations have at least rhetorical 
consensus on the criticality of industrialization and the need 
to create coherent national, regional, and continental 
industrial policy frameworks.
    The first challenge of U.S. policy is to ensure that it is 
working in concert with these broader frameworks, which are 
geared toward creating economic development that is inclusive, 
sustainable, and a generator of decent jobs.
    In a country that seems to be on the brink of economic 
collapse, this recommendation may seem premature. However, 
through targeted assistance and diplomacy, it may be possible 
to forge a new social contract with actors willing to put aside 
partisan politics.
    Lastly, while the international community was deeply 
disappointed in SADC's unwillingness to be guided by its own 
internal policies during the 2013 elections, it remains an 
important regional body and should be viewed as a central 
partner of the United States as it formulates policy toward 
Zimbabwe.
    Continued diplomatic efforts, along with support for 
regional advocates, can exert bottom-up pressures on 
governments, particularly on issues pertaining to elections, 
governance, and democratic practice.
    Thank you. Thank you for this opportunity.
    Mr. Smith of New Jersey. Thank you very much, Ms. Countess.
    [The prepared statement of Ms. Countess follows:]
   
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
                              ----------                              

    Mr. Smith of New Jersey. And just let me ask a couple 
questions in regards to labor rights in Zimbabwe.
    Are they respected? Are there independent trade unions? Do 
they have influence?
    Ms. Countess. That is three questions.
    Trade unions have influence. Labor rights are, by and 
large, not respected. When you have such a small amount of 
workers formally employed--and we are talking 10 percent to 15 
percent of workers are employed in the formal economy--and you 
have a country in deep decline, the incentive for companies, 
for manufacturers, to actually respect labor law is very, very 
low.
    And what we have seen in those places where collective 
bargaining agreements do exist, workers do have some legal 
ability to negotiate and hold companies accountable. But, 
unfortunately, what we have seen is that literally every week 
companies are closing in the country and, as companies close, 
they totally renege on their obligations to those workers, 
pensions, severance, et cetera. They totally renege on those 
obligations.
    And also what we have seen are more and more examples of 
companies that just are not paying their workers, where, 
literally, you have people going to work every day in the hopes 
that they might get an allowance or, you know, transportation 
assistance at some period in time.
    Mr. Smith of New Jersey. As Mugabe looks east, as Mr. 
Freeth points out in his testimony, and China increasingly 
dumps goods and manufactures--do you find that that further 
lowers the standards for laborers?
    Ms. Countess. Absolutely. What our partners have found in 
their assessments of Chinese-owned mines, factories and so 
forth is very low adherence to current labor law, much less 
international standards. Many Chinese mines, for example, are 
not unionized. They do not allow a union presence. And the 
treatment of workers and the working standards are extremely 
low.
    In terms of the dumping of products, there have been, I 
would say, probably over the past 10 years various campaigns in 
Zimbabwe, citizen-driven campaigns, opposed to the dumping of 
products which are generally of very, very poor quality and 
relatively expensive, given the quality. There is a high degree 
of dissatisfaction with the products that are basically forced 
upon the people of the country.
    Mr. Smith of New Jersey. And, finally, does Zimbabwe get a 
bad deal vis-a-vis China in terms of the precious metals and 
the like that they send to Beijing versus what they get back in 
terms of either barter or money?
    Ms. Countess. We would have to get back to you with 
specifics on that. My impression, based on the information that 
we have to date, is that Zimbabwe has entered into fairly 
dangerous territory in the sense that, in several of the more 
recent agreements, it has essentially used the future, the 
unknown wealth in the ground, in order to access loans from the 
Chinese Government.
    And so it is putting in place a pretty serious debtor 
relationship when that country is already literally billions of 
dollars in debt to international organizations as well as 
various countries.
    Mr. Smith of New Jersey. Mr. Freeth, if I could just ask 
you--and I would agree with you that, no matter who practices 
it, racial hatred is always deplorable. Whether it be from a 
Black or a White or a White to a Black, it doesn't matter. All 
racism is deplorable.
    And I am wondering, do you find any empathy or sympathy 
from the opposition, like MDC-T, Tsvangirai, and others who 
might form a government in the future, who would see that the 
seizure of farmland and farms, as you pointed out--if you could 
elaborate a little bit, you know, the idea of spending 2 years 
in jail for farming, what is that about? If you stay on your 
own farm, you can end up going to jail?
    And I remember, when the seizures were occurring, Tony 
Blair was absolutely outspoken. I spoke about it as well. I 
wasn't the only one. But in terms of a complaint, as 
signatories to the International Convention on the Elimination 
of All Forms of Racial Discrimination, is there a reason why 
the UK has not brought a complaint itself as signatories as 
well? But, again, if you could, is the opposition at all 
empathetic to what has been experienced by the White farmers?
    Mr. Freeth. On the opposition side, there is obviously 
sympathy. They say that, if they got back into power, they 
would immediately ensure that commercial agriculture could go 
forward, irrespective of whether you are White or Black, and 
that the laws that in are place at the moment would be taken 
away.
    At the moment we have got a constitution that under section 
72 says that, at a strike of a pen, your property can be taken 
away and, if you then are still on that land, it becomes state 
land immediately. It doesn't matter about compensation or 
anything like that. If you are still on that land, you then 
face 2 years in jail. So the law is very much there.
    And the MDC say, yes, they would take those laws away, they 
would ensure that such laws that were struck down by the SADC 
Tribunal are not there any longer. You know, there is no 
constitution in the world that actually allows for such 
draconian measures against property rights.
    As far as the United Kingdom wanting to make a complaint is 
concerned, I have had discussions with various people in the 
United Kingdom administration. And the feeling is that, because 
they were the colonial power, it is not really for them to do 
it. Mugabe would have a field day with his propaganda if they 
were the ones who made the complaint.
    But a country that has no colonial history, like the United 
States, obviously, it would be a lot easier to be able to do 
that.
    Mr. Smith of New Jersey. Thank you.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    Ms. Countess, you heard--and I would ask you the same 
thing, Mr. Freeth--the questions I was asking about sanctions 
of individuals.
    And I was just wondering what you thought of the current 
U.S. policy and its impact, in general, but, also, the 
sanctioning of individuals.
    Ms. Countess. Based on the feedback that we received from 
our partners, the general U.S. policy to Zimbabwe is 
appreciated and respected. As Dr. Smith noted, it has been 
characterized as humanitarian plus, so a high degree of 
emphasis on ensuring that people's basic needs are met.
    However, our partners are also very deeply concerned about 
what might be a serious decline in terms of U.S. support for 
human rights and democracy and governance. As I noted in my 
testimony, there has been a significant drop in funding in 
democracy programs in USAID, a 40-percent drop since 2008. When 
we look at the countries in Africa that have significant 
democracy and governance funding, we are only looking at three: 
South Sudan, Nigeria, and Liberia.
    So when you look at the human rights and democracy 
challenges facing many countries in Africa, particularly 
Zimbabwe, this is a serious issue. And we appreciate the 
subcommittee's openness to hearing these concerns and encourage 
a deeper consideration.
    Ms. Bass. Why do you think that is? I mean, why is our 
funding--I mean, I am surprised, actually. I didn't realize it 
was those three countries. And then, on the humanitarian side, 
does our funding get where it is supposed to go?
    Ms. Countess. My understanding, as Dr. Smith said, is that 
the funding, humanitarian aid, does go where it is supposed to. 
USAID is very good at distributing basic foodstuffs. And you 
can visit rural areas, as I have in Zimbabwe, and see the 
cooking oil cans that say ``Gift from the U.S.''
    Ms. Bass. I see.
    Ms. Countess. Right? So I think that those resources do get 
out. The decline in DRG support is surprising to us as well. We 
would certainly like to see it increased.
    It is important, we think. Not only does it send a very 
strong and real message of what sort of bucks behind U.S. 
values and U.S. rhetorical support for democracy----
    Ms. Bass. That reduction is internal to USAID. Correct?
    Ms. Countess. That is my understanding.
    Ms. Bass. Right. It is not that we have cut the funding?
    Ms. Countess. Correct. That is my understanding.
    Ms. Bass. Or, rather, maybe it is their implementation of 
how we fund it or not. But, anyway, I was trying to get some 
clarity on that.
    I know that in the Zimbabwean Constitution there is 
supposed to be a gender commission. Does one exist?
    Ms. Countess. To my knowledge, a gender commission might 
exist. But I think the next question is: Does it function?
    Ms. Bass. There you go.
    Ms. Countess. And this is part of the problem, I think, 
facing the Zimbabwe Government as a whole. Because the 
political infighting, both in the ruling party as well as the 
opposition, has been so all-consuming, basic government 
functions simply have been ignored to the detriment of the 
country, with the biggest problem, obviously, being in the 
economy.
    However, as I said in my testimony, what our partners say 
to us is that there are individuals, there are 
Parliamentarians--there is a possibility to create a new social 
contract with those individuals that have responsibility for 
certain portfolios, but who are willing to look beyond the 
partisanship, who recognize how deeply in trouble the country 
is.
    And I think, if we can encourage our policymakers to move 
beyond our role in any partisanship and to support and promote 
dialogue, particularly with those institutions that are 
actually functioning, then maybe we can begin to see at least 
the framework for a different situation in the future.
    Ms. Bass. Would you agree with Dr. Smith that the 
opposition is so fractured that they are ineffective?
    Ms. Countess. Yes.
    Ms. Bass. At this point you don't see any viable 
alternative?
    Ms. Countess. At this point I don't see a viable 
alternative today. But there are discussions going on. Morgan 
Tsvangirai, for example, has been going around the country, 
engaging in grassroots conversations.
    We don't know what the future will hold. I know that the 
MDC Renewal has also been split even further. There are 
individuals that are forming new parties. There are rumors 
that, within ZANU, individuals who have been forced out will 
form a new political party.
    There is a lot of conversation going on and maneuvering 
behind the scenes, and we don't know. But at this point in time 
what is very, very clear is that no one in power seems to be 
working on behalf of the people of Zimbabwe and certainly not 
the working people.
    Ms. Bass. Thank you.
    And, Mr. Freeth, what did you think in terms of current 
U.S. policy and the sanctions?
    Mr. Freeth. I think it is very important that it is 
retained. You know, the European Union----
    Ms. Bass. Retained.
    Mr. Freeth. Retained. Yeah.
    Ms. Bass. I just wondered if it's effective.
    Mr. Freeth. The European Union has made the experiment of 
trying to re-engage, and they have taken all targeted 
restrictions off against everyone, apart from the President and 
his wife.
    And, meantime, we have these things like Itai Dzamara 
disappearing. We have the continued takeover of properties, the 
retention of draconian laws. There does not seem to be any quid 
pro quo taking place.
    And so, until we see that the European Union actually is 
having success in negotiating a better environment for 
Zimbabweans, I think it is important--just like on the school 
grounds where there is a bully, you have to actually confront 
that bully and say, ``Listen, we can't accept this.''
    Ms. Bass. Well, just so you know, I was not asking that in 
terms of whether they needed to be lifted. I just wanted to 
know the impact.
    But I also wanted to follow a little bit the chairman's 
questions in terms of allies that you have within the 
opposition. I think we have kind of established that the 
opposition is not that viable of an opposition.
    But what about outside of Zimbabwe in terms of other 
African countries? Are there allies? And then, also, outside of 
Britain, are there European or other countries that are working 
with you in terms of what you are trying to do?
    Mr. Freeth. Well, obviously, Botswana is a country that is 
an ally in terms of the fact that it has got a very good 
record.
    Ms. Bass. Right.
    Mr. Freeth. It is right on our border. And the President of 
Botswana, Ian Khama, is going to be taking over as Chairman of 
the Southern African Development Community.
    Ms. Bass. Good.
    Mr. Freeth. So we hope that that will create some change in 
terms of the way that the countries around us respond to what 
is going on in Zimbabwe.
    I think the civil society itself is moving very much in the 
right direction. For example, where the SADC Tribunal is 
concerned, there are quite a few different countries taking 
their governments to court on the basis that it was totally 
unconstitutional what the leaders did in destroying this court 
without any legal or democratic process. And so the law 
societies are taking their governments to task. And that is 
encouraging. You know, that is important.
    We battle. I think there seems to be something about the 
aura of our President that stops people from really wanting to 
take him on in any way. At the age of 91, he is obviously an 
elder statesman. On the African continent, he is currently 
Chairman of the African Union, Chairman of SADC. He has this 
aura about him that seems to be so persuasive in stopping 
people from confronting the things that are wrong, and this is 
one of our biggest problems in Africa.
    Ms. Bass. One final question is: What would you like to see 
as the solution? Because you made reference--I think you were 
making reference to the constitution, but it didn't seem as 
though you have faith, basically, with a new government, that 
the constitution would actually be upheld. What do you see as 
the ultimate solution?
    Mr. Freeth. Well, the ultimate solution is, obviously, a 
democratic government coming into being and respecting the rule 
of law and property rights and ensuring that the people's God-
given abilities are able to be realized. But until that 
happens, I believe that we have to use whatever measures we can 
to put pressure on the current regime to ensure that that 
situation can eventually materialize--and never to lose hope.
    The people of Zimbabwe want something different. They want 
change. They want a democratic force to come into power where 
their God-given potential can be released in the country. We 
believe very strongly that Zimbabwe can grow very dramatically 
and very quickly when that time comes. But until that time 
comes, we will continue to regress.
    So, in the meantime, I believe strongly that we need to 
invoke the various conventions that our President has actually 
signed up to and put pressure, for example, through the 
Internaitonal Convention on the Elimination of All Forms of 
Racial Discrimination, which is the United Nations convention 
which the U.S. has signed up to and Mugabe has signed up to, in 
order to create some form of accountability.
    This culture of impunity that our ruling elite continue to 
be able to get away with all the time needs to stop eventually, 
and some form of accountability is so critical to stop 
criminals from carrying on committing criminal acts.
    Ms. Bass. Thank you. Thank you, Mr. Chair.
    Mr. Smith of New Jersey. Mr. Donovan.
    Mr. Donovan. Thank you, Chairman.
    I just have two questions. And my 88-year-old mother would 
be very disappointed in the way she raised me if I didn't ask 
Ms. Countess first. But my question is for both of you.
    For the people that you represent, the workers, what more 
could our country do? And for yourself, for the farmers, what 
could our country do to help you and help those people in need?
    And my second question, follow-up, is: Unless there is a 
change in the regime and the government, will any of those 
measures that you are going to suggest to us--would they be 
effective unless there is a change in government?
    Ms. Countess. In Zimbabwe, we work with, as I mentioned, 
the Zimbabwe Congress of Trade Unions. We also work with an 
organization called the Zimbabwe Chamber of Informal Economy 
Associations, ZCIEA. The reason I mention ZCIEA is because it 
is an association of associations that work with that vast army 
that I talked about, so everyone from the petty traders to 
women in construction, to cross-border traders and market 
vendors.
    Because even in this very difficult time, people do seek to 
organize themselves. They do seek to negotiate a better deal 
with their communities, leaders with their municipalities, and 
so forth. And so, as we provide technical assistance, help them 
build their capacity to carry out their own agendas, not only 
do they find success, but they also develop new confidence and 
are able then to tackle bigger issues.
    So in terms of the answer to your question does any of this 
work really make a difference without a change in government, 
it absolutely makes a difference, absolutely makes a 
difference. Because the kind of small successes that our trade 
union partners and our informal economy partners find are, for 
example, in a marketplace, negotiating with a community leader 
to ensure that that marketplace has toilets and access to 
water.
    In terms of our union partners, the kinds of successes that 
we are talking about are workers getting their fair share, 
their negotiated rights and benefits within certain 
circumstances, either in terms of a termination or a full-blown 
retrenchment. We are talking about unions having the ability to 
carry out their role within the tripartite structures of 
government.
    So unlike other parts of civil society, unions are able to 
sit with government, with business, in various institutions and 
establish things like wages at a sectorial level or a national 
level, national health policy, Social Security and so forth, 
the extent to which through our assistance--and I mean us, the 
United States--is the extent to which we can continue and build 
upon the work that we are already doing. What we do then is to 
help stem the tide, forestall a full-blown economic collapse, 
and forestall the decimation of all institutions in the 
country.
    This is critically important. Zimbabwe is in the middle of 
southern Africa. What do you think will happen if that country 
implodes? What do you think will happen in South Africa, 
Botswana, Mozambique, Namibia, if that country implodes?
    Part of the reason why I think the U.S. has been so quick, 
for example, in 2008, to jump on the cholera epidemic in 
Zimbabwe was because diseases spread. They do not hold to 
national borders.
    So you really don't want for a variety of reasons to see 
that country fall apart. And for us, as trade unionists, we are 
committed to maintaining our partnerships with our brothers and 
sisters in Zimbabwe.
    Mr. Clawson. If the gentleman will yield.
    [Audio malfunction in hearing room.]
    Mr. Clawson [continuing]. Is why you have a refugee crises 
in other countries----
    Ms. Countess. Yes.
    Mr. Clawson [continuing]. And the xenophobia and the 
violence directed toward those refugees. But those same very 
neighbors of those countries that you just listed, I have been 
to all those countries, done business in a lot of those 
countries. They select this guy as their head guy. Europe stays 
on the sidelines. So, realistically, what, you know, what do we 
do?
    I mean, I am all for humanitarian help. But these same 
countries that you said will be impacted by the implosion are 
sitting it out while White people, Black people, women, men, 
poor, everybody gets hurt by this guy.
    So if what you said is true--and I don't doubt it--why does 
everybody sit this one out when this guy needs to go?
    Ms. Countess. Democracy is a funny thing.
    Mr. Clawson. You are not calling any of this democracy. 
Right? None of us bet on a union contract or a constitution or 
any piece of paper. Every bet we ever make is on people.
    Ms. Countess. SADC leaders voted on Mugabe. And that is 
their process. That is their decision. It wasn't the people of 
southern Africa that made that decision. There was no region-
wide vote on who would become the head of SADC. Those leaders 
that represent those countries made a decision, and that is 
their decision.
    Part of the political reality that also has to be factored 
into U.S. policy is that, while we are now talking about 
Zimbabwe and its governance issues, there is a very real fear 
that some years down the line we might be talking about a 
governance crisis in South Africa, that we might be talking 
about governance crises in other SADC nations.
    And so one of the reasons why many in civil society 
throughout the region have placed such a high degree of 
emphasis on Zimbabwe is because you have to take a stand 
somewhere. You can't just write one country off of 12 million 
people.
    Mr. Clawson. So why did those leaders of states of those 
countries vote for this guy? What is the reason for that? 
Corruption likes corruption? What is the reason?
    Ms. Countess. I would say that they have similar interests.
    Mr. Donovan. Thank you very much, Ms. Countess.
    To remind Mr. Freeth, I was just curious about what our 
country could do that we are not doing now to further the 
rights of the farmers in Zimbabwe.
    And would your suggestions, the measures that you think the 
United States should be taking that they are not doing now, be 
effective if the current government was still in place?
    Mr. Freeth. I think the big thing is: How do you create 
accountability in a country where you go to the police station 
because someone has got a bit of paper and has decided to take 
over your home and take over your livelihood and the police 
say, ``No. We can't help you because this is political''? How 
do you create accountability in that situation where you have 
an international court judgment in your favor--and my father-
in-law was actually killed in obtaining that court judgment--or 
as a result of going to court against the President and the 
government just refuses to recognize that judgment?
    I think the answer is we have to lay in place systems of 
accountability for the future. Obviously, we recognize that, 
while we have got someone who doesn't want to adhere to the 
rule of law, we have got a huge problem. But what we need to do 
is lay the foundations of justice and righteousness for the 
future, which we all want to build on in the future so the 
country can go forward.
    So I believe that there are measures that we can take to 
document things that are taking place, that we can invoke 
international conventions, that we can ensure that whatever can 
be done within the limited scope of our own justice system is 
done.
    Farmers at the moment and farm workers don't have any money 
any longer to fight their own legal cases. So through Zimbabwe 
Lawyers for Human Rights and those kinds of organizations to 
help people in those positions where injustice is placing them 
and they can't actually defend themselves, it is very important 
that those people are able to in some way defend themselves in 
their situations.
    But it is. It is a very difficult situation to know how to 
help people in this crisis. But we have to just look at 
whatever instruments that we possibly can to create 
accountability. And so to get committees to come out to 
Zimbabwe, see with their own eyes what is taking place, to get 
the Embassy to go out to situations out of the Harare bubble, 
as we call it, to see situations, this is really critical. It 
is really important.
    Mr. Donovan. Thank you.
    Mr. Smith of New Jersey. Just one final question: What does 
a seizure look like? It is not just one. It will be several. 
Where are the farmers? I mean, are some in jail? Have some 
emigrated elsewhere? Are they just simply impoverished? And the 
workers that very often are equally displaced, if my 
understanding is correct, where do they go?
    As I think both of you mentioned, and I have been following 
it myself, which is why I asked Dr. Smith several questions 
along these lines. Is Zimbabwe heading toward another manmade 
famine because of a totally reckless and irresponsible and 
wrong policy toward people who own those farms? Where are they?
    And if you would just speak a little bit about the court. 
What kind of proceeding was it? Was it before multiple judges? 
And what is the enforcement power or was--Mr. Clawson--what was 
the enforcement power of the court itself? Is it more of an 
admonishment or do they have a standing in countries where 
judgments are meted out?
    Mr. Freeth. Okay. First of all, what does a takeover look 
like. Essentially what happens is someone comes along with an 
offer letter signed by the minister. He says, ``I am the new 
owner of this farm.''
    And, basically, what then happens is he can then get very 
violent, as they did in our case. Many of our workers were 
severely beaten. They had fractured skulls, broken bones, 
people thrown into fires, police coming out, putting workers 
who had been beaten up into high-security jail, and just 
creating absolute mayhem.
    The police then also get involved. And there is a 
prosecution process if you refuse to get off. And the trial can 
go on for a very, very long time. I know farmers who have spent 
more than 100 days in court at their trials. And it is very, 
very painful going through a trial. Facing 2 years in a 
Zimbabwe jail is no joke.
    So people obviously get drained financially. A hundred days 
in court is a lot of money in lawyers' fees. They get drained 
emotionally. And when they eventually have to leave the farm, 
they very often leave with nothing.
    I mean, in our case, all our tractors were stolen, all our 
crops were stolen, our generators, our pumps, our irrigation 
equipment. All our wildlife was killed. We had a safari lodge. 
That was burnt down. Our house was burnt down. My parents-in-
law's house was burnt down. Various workers' houses were burnt 
down.
    So it is a pretty dramatic thing that takes place on the 
farm when these situations occur, and it creates an environment 
of absolute fear in that whole area so that no one wants to in 
any way oppose the government in the future.
    The farm workers normally remain on the property mostly. 
Many of them were migrant laborers that came down three or four 
generations ago from Malawi and Mozambique and Zambia in the 
heyday of Zimbabwean agriculture. But they have lost all touch 
with their families back there. They have got no communal land 
to be able to go back to.
    So they mostly remain on the farms where they can and eke 
out an existence, which is incredibly frugal. They don't have 
money to buy seed. They don't have money to buy fertilizer. 
They are normally allowed to plant a little bit of maize and 
that sort of thing around their houses. But they cannot then 
send their children to school. They cannot feed themselves 
properly. And that is a huge percentage of our population. So 
it is a massive problem that has unfolded over many years.
    As far as the SADC Tribunal is concerned, this was a court 
that was set up through the Southern African Development 
Community Treaty that was eventually put into place. The treaty 
was signed in 1992. But the SADC Tribunal eventually only 
opened for business in--the judges were appointed in 2005, ten 
judges from different southern African countries. And at any 
one time, five judges would sit at a particular hearing.
    So the process that took place in our situation was the 
Zimbabwe Government agreed to allow whatever judgment came out 
of the SADC Tribunal. They said they would adhere to that. They 
argued the case. They finally in the final hearing wanted to 
defer the case. And when we went for a contempt later on, they 
actually walked out of the courtroom.
    But they argued the full case. And the SADC Tribunal then 
made their judgment, all five judges, on November 28, 2008. And 
the judgment is there. It is a final and binding judgment. But, 
unfortunately, the Zimbabwe Government did not accept that 
judgment.
    We went on to register the judgment in South Africa. And we 
had a cost award against the Zimbabwe Government. So we 
attached a house belonging to the Zimbabwe Government in Cape 
Town. And the Zimbabwe Government suddenly realized that it 
wasn't just a bit of paper that they could tear up. It actually 
meant something. And so they suddenly came and they paid the 
lawyers' fees and stopped the auction taking place of that 
Zimbabwe Government house.
    But to this day they have not adhered to the judgment on 
the ground and allowed the people who should be allowed to 
carry on farming to do so. And so we are in a situation at the 
moment where we have got the judgment, but there are no teeth 
to actually adhere to it.
    There were various provisions in the treaty for sanctions 
to be able to put by the other Southern African Development 
Community countries against Zimbabwe, but they did not choose 
to follow that route and, rather, dissolved the whole court.
    And that is why the various law societies in the Southern 
African Development Community are taking their governments to 
court and saying, ``You can't do that. You can't just, because 
you don't like the court, close it down to the citizens of 
southern Africa.''
    So I think it is very important for the people of southern 
Africa that that court is in place, and whatever can be done to 
support initiatives to resurrect that court are very important.
    Mr. Smith of New Jersey. How long has it been defunct?
    Mr. Freeth. Since 2012. And what they are saying now is 
that they are going to--well, they have put together a new 
protocol that will allow state-to-state conflicts to be 
adjudicated upon, but no individuals are able to approach the 
court. So from one year to the next, the court will simply not 
sit.
    Mr. Smith of New Jersey. That sounds like an inferior 
remedy to me, not having people to have access to such a 
tribunal. Thank you.
    And we will follow up on your recommendations, both of 
yours. So many excellent ones. We will scope out the idea of 
approaching the administration to see--because, as the 
executive branch, it would be their call--to bring an action as 
a member state to the International Convention on the 
Elimination of All Forms of Racial Discrimination.
    It has been my experience that there is often a reluctance 
on the part of the executive branch, but it is worth pursuing. 
And I thank you for that recommendation. Of course, even if 
they came down and came down strongly in your favor, which I 
think the facts would lead inexorably to, their enforcement 
powers are very limited as well.
    But it would at least create a surge, especially in a post-
Mugabe government, when, as part of reconciliation, justice is 
being looked at very clearly as well. There should be justice 
for all. And I thank you for so eloquently stating your case, 
but the case of so many others.
    I do have a question: How many farmers are there that have 
been dispossessed of their farms?
    Mr. Freeth. There were about 4,500 White commercial farms. 
And it is difficult to say, but probably a couple of hundred 
still eking out a living in some way.
    Mr. Smith of New Jersey. And are there farmers still in 
prison?
    Mr. Freeth. They imprisoned some people. But, basically, 
people got out. What the magistrate would normally say or 
normally does is say, ``You need to get off the farm. If you 
are back on the farm in any way at all, then we will put you in 
jail,'' so a suspended sentence.
    Mr. Smith of New Jersey. Thank you.
    You know, one of the joys of serving in Congress is that 
there are so many diverse individuals with tremendous 
backgrounds in law enforcement, humanitarian work.
    It is good to have an experienced prosecutor now joining 
our subcommittee, Mr. Donovan.
    Thank you so much again. And I look forward to working with 
you going forward.
    The hearing is adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
         
         

                                 [all]
</pre></body></html>
